          Office of Inspector General




July 7, 2004

AKINYINKA O. AKINYELE
MANAGER, CHICAGO DISTRICT

KENNETH J. BRAUN
MANAGER, GREATER INDIANA DISTRICT

SUBJECT:       Audit Report – Efforts to Prevent Accidents, Injuries, and Illnesses in
               the Chicago and Greater Indiana Performance Clusters
               (Great Lakes Area) (Report Number HM-AR-04-009)

This report presents the results of our self-initiated audit of the Chicago and Greater
Indiana Performance Clusters’ (Great Lakes Area) efforts to prevent accidents,
injuries, and illnesses (Project Number 03YG011LH003). Our overall objective was
to determine whether the performance clusters were reducing the number of
accidents, injuries, and illnesses through prevention methods. This report is the
second in a series of seven reports we will issue on accident prevention initiatives in
6 areas and 12 performance clusters. The seventh report will address issues with
nationwide impact and will provide the results of our best practice review of safety
issues.

The Chicago and Greater Indiana Performance Clusters had implemented
prevention initiatives that have the potential to become best practices in reducing
accidents, injuries, and illnesses. However, we could not determine whether the
prevention initiatives reduced the number of accidents, injuries, and illnesses, or
whether the initiatives were implemented in a timely manner.

Although both performance clusters were accumulating and analyzing accident,
injury, and illness data for prevention initiatives, the Human Resources Information
Systems and the Risk Management Reporting System are antiquated and will be
replaced. Finally, in all six facilities we visited in the Chicago and Greater Indiana
Performance Clusters, the reporting processes facilitated accurate reporting of
accidents, injuries, and illnesses.
We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions or need additional information, please contact
Chris Nicoloff, Director, Human Capital, at (214) 775-9114 or me at (703) 248-2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: Suzanne F. Medvidovich
    John A. Rapp
    DeWitt O. Harris
    Samuel M. Pulcrano
    Jo Ann Feindt
    Mangala P. Gandhi
    Joseph K. Moore
Efforts to Prevent Accidents, Injuries,                                     HM-AR-04-009
 and Illnesses in the Chicago and Greater Indiana
 Performance Clusters (Great Lakes Area)

                                  TABLE OF CONTENTS

Executive Summary
                                                               i

Part I 


Introduction 
                                                                  1

   Background                                                                   1

   Objectives, Scope, and Methodology                                           2

   Prior Audit Coverage                                                         3


Part II 


Audit Results                                                                   4


   Accident Prevention Initiatives                                              4


    Effectiveness and Timeliness of Prevention Initiatives                      5


   Accident Reporting Systems                                                   7


   Reporting Processes                                                          8

    Management’s Comments                                                       9

    Evaluation of Management’s Comments                                         9


Appendix A. Abbreviations                                                      10 


Appendix B. Scope and Methodology                                              11 


Appendix C. Statistical Sampling for Review of Accident Reporting 

            Processes in Chicago Performance Cluster                           13 


Appendix D. Statistical Sampling and Projections for Review of Accident 

            Reporting Processes in Greater Indiana Performance 

            Cluster                                                            15 


Appendix E. Management’s Comments                                              18 

Efforts to Prevent Accidents, Injuries,                                              HM-AR-04-009
 and Illnesses in the Chicago and Greater Indiana
 Performance Clusters (Great Lakes Area)

                                         EXECUTIVE SUMMARY
 Introduction 	                 This report presents the results of our self-initiated audit to
                                determine whether the Chicago and Greater Indiana
                                Performance Clusters, located in the Great Lakes Area,
                                were reducing the number of accidents, injuries, and
                                illnesses through prevention initiatives.

 Results in Brief               The Chicago and Greater Indiana Performance Clusters
                                have implemented prevention initiatives that could become
                                best practices in reducing accidents, injuries, and illnesses.
                                However, we could not determine whether the prevention
                                initiatives reduced the number of accidents, injuries, and
                                illnesses, or whether the initiatives were implemented in a
                                timely manner. This occurred because the measurement
                                tools in place did not allow safety personnel to track and
                                monitor the effectiveness of specific prevention initiatives.

                                Although both performance clusters were accumulating and
                                analyzing accident, injury, and illness data for prevention
                                initiatives in the Human Resources Information Systems
                                and the Risk Management Reporting System, both systems
                                are antiquated and will be replaced.

                                Postal Service Headquarters officials told us they were
                                addressing these issues at the headquarters level. We will
                                issue a summary report on the audit results for the six areas
                                visited. In that report, we may make recommendations to
                                the Senior Vice President, Human Resources, regarding the
                                measurement tools and data systems.

                                Finally, in all six of the facilities we visited in the Chicago
                                and Greater Indiana Performance Clusters, reporting
                                processes used within the various functional areas
                                facilitated the accurate reporting of accidents, injuries, and
                                illnesses.

 Summary of                     Management comments were not required; however,
 Management’s                   management provided comments stating there were no
 Comments                       disagreements with the audit report’s findings.

                                Management also stated it would be useful if the report
                                contained sufficient information for the audited offices to
                                investigate and correct the deficiencies identified.




                                                    i
Efforts to Prevent Accidents, Injuries,                                          HM-AR-04-009
 and Illnesses in the Chicago and Greater Indiana
 Performance Clusters (Great Lakes Area)



                                Management also stated they would like clarification of the
                                findings so that future errors can be corrected. For
                                example, they wanted to know what accidents were missing
                                from the database. Management’s comments, in their
                                entirety, are included in Appendix E of this report.

 Overall Evaluation of          We agree that additional clarification would allow the
 Management’s                   performance clusters to correct future errors. However,
 Comments                       because the information includes Social Security numbers
                                and employee names, we could not include it in our report.
                                However, we will provide additional clarification to the
                                Greater Indiana Performance Cluster under separate cover.




                                                    ii
Efforts to Prevent Accidents, Injuries,                                                                HM-AR-04-009
 and Illnesses in the Chicago and Greater Indiana
 Performance Clusters (Great Lakes Area)

                                           INTRODUCTION
    Background                      With responsibility for more than 38,000 facilities, major
                                    transportation networks, and universal delivery, the Postal
                                    Service faces significant challenges in the areas of health
                                    and safety. These include making the health and safety of
                                    Postal Service employees a priority, managing the
                                    associated costs and lost productivity in operations, and
                                    responding when accidents and injuries have an
                                    unfavorable impact on the workplace. In addition, the
                                    Postal Service must address citations and monetary
                                    penalties for noncompliance with Occupational Safety and
                                    Health Administration (OSHA) standards.

                                    In its April 2002 Transformation Plan, the Postal Service
                                    stated that to meet its challenges and prepare for
                                    transformation, it would implement a number of strategies to
                                    “push business effectiveness and operational efficiency.”
                                    One of the strategies outlined was to reduce its workers’
                                    compensation costs. According to the Office of Workers’
                                    Compensation Programs’ (OWCP) chargeback1 reports, the
                                    Postal Service workers’ compensation costs have increased
                                    from $538 million to $822 million between chargeback
                                    years 1997 and 2003.2

                                    The following table is a comparison of Postal Service-wide
                                    accidents3 and OSHA injuries and illnesses4 for fiscal years
                                    (FYs) 2002 and 2003, which shows decreases in
                                    four categories. In addition, total expenses in FY 2003
                                    decreased significantly.




1
  The OWCP’s chargeback system is the mechanism by which the Department of Labor annually bills the cost of
compensation for work-related injuries and deaths to employing agencies.
2
  The OWCP’s chargeback year is July 1 through June 30.
3
  The Postal Service considers accidents as all reportable and nonreportable incidents, including unadjudicated
occupational illness cases that cover certain kinds of injuries, illnesses, or damages. OSHA defines an accident
as any unplanned event that results in personal injury or property damage.
4
  OSHA defines an injury or illness as an abnormal condition or disorder. Injuries include, but are not limited to
cuts, fractures, sprains, or amputations. Illnesses include both acute and chronic illnesses such as, but not
limited to skin diseases, respiratory disorders, or poisoning.




                                                        1
Efforts to Prevent Accidents, Injuries,                                                               HM-AR-04-009
 and Illnesses in the Chicago and Greater Indiana
 Performance Clusters (Great Lakes Area)


                                   Table 1. Comparison of Postal Service-wide Accidents and OSHA
                                            Injuries and Illnesses, FYs 2002 and 2003

                                          Category                FY 2002                FY 2003
                                    Motor Vehicle                           23,404                 23,100
                                    Accidents
                                    Non-Motor Vehicle                       99,195                 93,251
                                    Accidents
                                    OSHA Injuries                           51,630                 46,317
                                    OSHA Illnesses                           6,972                  5,550
                                    Total Accident, Injury,        $1,652,449,865        $1,620,024,027
                                    and Illness Expenses


                                   Source: Postal Service Web-Enabled Enterprise Information System (WebEIS).


                                   Postal Service Headquarters officials did not know
                                   specifically what was responsible for the reduction in
                                   accidents. They believed, however, it was the result of
                                   accident prevention initiatives.

                                   To determine why the number of accidents, injuries, and
                                   illnesses declined, we conducted a survey of the accident
                                   prevention initiatives in the Postal Service’s Western
                                   New York and Baltimore Performance Clusters, located in
                                   the Northeast and Capital Metro Areas, respectively. Our
                                   results showed that accident prevention initiatives in each
                                   performance cluster were different and yielded contrasting
                                   results. We conducted this audit to determine whether
                                   similar situations existed in the Chicago and Greater Indiana
                                   Performance Clusters. We did not audit the performance
                                   clusters’ overall safety programs. Our focus was on
                                   accident prevention initiatives at the locations we visited.

    Objectives, Scope,             Our overall objective was to determine whether the Chicago
    and Methodology                and Greater Indiana Performance Clusters were reducing
                                   the number of accidents, injuries, and illnesses through
                                   prevention initiatives. Our four subobjectives were to
                                   determine whether:

                                       •	 The number of accidents and injuries was declining
                                          as a result of corrections to unsafe working
                                          conditions and practices.5


5
  Corrections to unsafe working conditions and practices were considered both corrective actions and prevention
initiatives. The purpose of this subobjective was to determine the effectiveness of prevention initiatives.




                                                          2
Efforts to Prevent Accidents, Injuries,                                            HM-AR-04-009
 and Illnesses in the Chicago and Greater Indiana
 Performance Clusters (Great Lakes Area)

                                    •	 Corrective actions and/or prevention initiatives were
                                       made in a timely manner.

                                    •	 Data were being accumulated and analyzed for
                                       prevention initiatives.

                                    •	 Processes facilitated accurate reporting.

                                We discuss our scope and methodology in Appendix B.

 Prior Audit Coverage 	 In the Chicago and Greater Indiana Performance Clusters,
                        we did not identify any prior audits or reviews related to the
                        objectives of this audit.




                                                    3
Efforts to Prevent Accidents, Injuries,                                              HM-AR-04-009
 and Illnesses in the Chicago and Greater Indiana
 Performance Clusters (Great Lakes Area)

                                         AUDIT RESULTS
                                The Chicago and Greater Indiana Performance Clusters had
                                implemented accident prevention initiatives. However, we could
                                not determine whether the prevention initiatives were reducing
                                the number of accidents, injuries, and illnesses, or whether the
                                initiatives were implemented in a timely manner.

                                Although the performance clusters were accumulating and
                                analyzing accident, injury, and illness data in two different
                                automated systems, both systems are antiquated and will be
                                replaced. Further, the reporting processes used within the
                                various functional areas facilitated accurate reporting of
                                accidents, injuries, and illnesses.

 Accident Prevention 	          The Chicago and Greater Indiana Performance Clusters’
 Initiatives 	                  prevention initiatives have the potential to become best
                                practices in reducing accidents, injuries, and illnesses. These
                                initiatives could also help other performance clusters to
                                enhance their safety programs. For example, the Chicago
                                Performance Cluster:

                                    •	    Conducted the Corrective Opportunity Patrol
                                          Supervisors Program to observe and reward drivers
                                          who were performing their duties in a safe manner.

                                    •	    Implemented an Employee Involvement Program to
                                          allow employees who had accidents to assist in giving
                                          training and safety talks on proper safety procedures.

                                    •	    Conducted One-on-One Safety Reviews between
                                          employees and their supervisors to help employees
                                          perform their jobs safely and discuss the relationship of
                                          job performance to safety expectations.

                                The Greater Indiana Performance Cluster conducted the
                                following prevention initiatives:

                                    •	 The Dog Bite Initiative to bring awareness to the
                                       community to help reduce dog bites. This initiative is a
                                       partnership between the performance cluster and local
                                       animal control.




                                                    4
Efforts to Prevent Accidents, Injuries,                                                         HM-AR-04-009
 and Illnesses in the Chicago and Greater Indiana
 Performance Clusters (Great Lakes Area)

                                     •	 The Safety Enhancement Awareness Program, which is
                                        a three-hour course held by the safety staff, to train
                                        employees with two or more preventable accidents.

                                     •	 A Driver Observations program for supervisors to
                                        perform two observations per year, per driver, and then
                                        discuss observations with the drivers.

    Effectiveness and            For FY 2002 through accounting period 8 in FY 2003, we could
    Timeliness of                not determine whether the Chicago and Greater Indiana
    Prevention Initiatives       Performance Clusters were reducing the number of accidents,
                                 injuries, and illnesses through prevention initiatives, or whether
                                 the initiatives were implemented in a timely manner. We could
                                 not make this determination because the measurement tools in
                                 place did not allow safety managers to:

                                     •   Track and monitor specific prevention initiatives.
                                     •   Document when initiatives were implemented.

                                 Some categories of accidents (slips, trips, falls, and lifts) had
                                 decreased in both performance clusters; however, the reasons
                                 for the decreases could not be determined. District safety
                                 personnel told us they did not think decreases in the numbers
                                 of accidents could be related to specific prevention initiatives.
                                 In addition, they had not documented the implementation dates.

                                 Both performance clusters implemented several accident
                                 prevention initiatives, and experienced decreases in both OSHA
                                 injury and illness and motor vehicle accident numbers and
                                 frequency rates6 from FY 2002 to 2003. The following table
                                 illustrates these decreases.




6
 OSHA injury and illness and motor vehicle accident frequency rates are the number of accidents per
100 employees for a specific period. These rates provide measurements that make accident data comparable
between large and small facilities.




                                                    5
Efforts to Prevent Accidents, Injuries,                                                       HM-AR-04-009
 and Illnesses in the Chicago and Greater Indiana
 Performance Clusters (Great Lakes Area)


                                 Table 2. 	OSHA Injury and Illness and Motor Vehicle Accident Numbers and
                                           Frequency Rates in the Chicago and Greater Indiana Performance
                                           Clusters for FYs 2002 and 2003

                                    Performance
                                      Cluster               Numbers           Average Frequency Rates
                                                         FY 2002 FY 2003          FY 2002    FY 2003
                                  Chicago
                                   OSHA Injury                732       611           6.56       5.73
                                    and Illness
                                   Motor Vehicle              273       203          23.71      23.17
                                  Greater Indiana
                                   OSHA Injury              1198        964           9.48       7.94
                                    and Illness
                                   Motor Vehicle              557       522          11.71      10.29

                                 Source: Postal Service WebEIS.


                                 Postal Service policy7 states that safety personnel are
                                 responsible for developing and monitoring a comprehensive
                                 safety and health program and analyzing accident, injury, and
                                 illness data so they can advise management on corrective
                                 actions. Policy8 also requires installations to develop methods
                                 to identify program needs for accident prevention. In addition,
                                 policy9 requires supervisors to implement written programs and
                                 action plans, monitor employees’ safety performance, and
                                 prevent operational safety accidents. District safety personnel
                                 at the Chicago and Greater Indiana Performance Clusters
                                 confirmed that facility managers were responsible for
                                 documenting that prevention initiatives had been implemented.

                                 Without implementation dates and adequate measurement
                                 tools, the Postal Service does not have reasonable assurance
                                 that prevention initiatives help the performance clusters reduce
                                 the number of accidents, injuries, and illnesses. To follow
                                 prudent business practices, Postal Service managers should
                                 evaluate whether prevention initiatives are accomplishing their
                                 goal and whether the resources expended are justified.

                                 Headquarters officials told us the safety tool kit that safety
                                 managers use to assess their safety programs is being modified
                                 to include trend line charts to track prevention initiatives. The
                                 officials said the tool kit would also be modified to include a field
                                 for managers to enter the date initiatives are implemented.
7
  Employee and Labor Relations Manual 17.2, Section 813.31, February 2003.
8
  Employee and Labor Relations Manual 17.2, Section 821.32, February 2003.
9
  Supervisor’s Safety Handbook, Handbook EL-801, Chapter 1, Section 1-1, May 2001.




                                                    6
Efforts to Prevent Accidents, Injuries,                                                 HM-AR-04-009
 and Illnesses in the Chicago and Greater Indiana
 Performance Clusters (Great Lakes Area)

                                   Therefore, we will address the need for tracking and monitoring
                                   initiatives in a separate report.10

 Accident Reporting                Both the Chicago and Greater Indiana Performance Clusters
 Systems                           were accumulating accident, injury, and illness data in the
                                   Human Resources Information Systems (HRIS) and Risk
                                   Management Reporting System (RMRS). However,
                                   headquarters personnel told us these systems are antiquated
                                   and will be replaced.

                                   Safety personnel at both performance clusters told us they used
                                   reports generated by HRIS and RMRS to analyze accident,
                                   injury, and illness numbers and rates in specific categories
                                   (slips, trips, falls, lifts, and illnesses). These reports were used
                                   to determine whether the numbers and rates were above or
                                   below expected targets, and to develop safety programs and
                                   action plans to reduce the number of accidents, injuries, and
                                   illnesses.

                                   Postal Service policy11 requires the safety offices responsible
                                   for facilities where accidents occur to enter accident report
                                   information into HRIS. Postal Service policy12 also states that
                                   the analysis of accidents and injuries is vital to effective
                                   accident prevention programs, and requires management to
                                   use reports and statistical analyses to identify and eliminate the
                                   principal causes of accidents and hazardous conditions. Postal
                                   Service policy13 further requires each business area that
                                   manages source data to identify an individual or organization
                                   who is responsible for developing standards and usage rules to
                                   ensure the integrity of data on accidents. The policy also states
                                   that the standards and rules must ensure that data is accurate,
                                   available, usable, and consistent with the data location and
                                   other business considerations.

                                   According to the headquarters Program Manager, Information
                                   Technology, Human Resources Portfolio, the Postal Service
                                   has developed the Injury Compensation Performance Analysis
                                   System and a component of it will replace HRIS and RMRS.



10
   We will issue a summary report on the audit results for the six areas visited.
11
   Employee and Labor Relations Manual 17.2, Section 821.123, February 2003.
12
   Employee and Labor Relations Manual 17.2, Section 821.31, February 2003.
13
   Management Instruction 860-2003-2, Administrative Support, March 6, 2003.




                                                        7
Efforts to Prevent Accidents, Injuries,                                                                HM-AR-04-009
 and Illnesses in the Chicago and Greater Indiana
 Performance Clusters (Great Lakes Area)



                                   The manager also stated that the system is scheduled for
                                   implementation late in calendar year 2004. We will address this
                                   issue in a separate report.

 Reporting Processes               In all six facilities we visited in the Chicago and Greater Indiana
                                   Performance Clusters, the reporting processes used within the
                                   various functional areas facilitated accurate reporting of
                                   accidents, injuries, and illnesses.

                                   We used a statistical sample to review the accuracy of the
                                   Chicago data in HRIS, and the completeness of the accident
                                   report forms,14 for FYs 2002 and 2003. Although the Chicago
                                   sample did not support a statistical projection, our tests
                                   indicated the data in HRIS was reasonably reliable, and the
                                   forms were complete (see Appendix C).

                                   We also used a statistical sample to project the accuracy of the
                                   Greater Indiana data in HRIS, and the completeness of the
                                   accident report forms, for FYs 2002 and 2003. We projected
                                   that almost all of the information on the forms in Greater Indiana
                                   were contained in the system, and the forms were complete
                                   (see Appendix D).

                                   Postal Service policy15 requires supervisors to fully complete
                                   the accident report by including preventive action codes16 and
                                   descriptions of accident prevention efforts. The policy also
                                   requires managers to review each accident report for accuracy
                                   and conduct a follow-up assessment to ensure that action was
                                   taken to prevent similar occurrences. In addition, supervisors
                                   and managers are required to sign the report as proof they
                                   have reviewed it. Policy17 also requires the safety officer to
                                   enter the accident report information into HRIS.

                                   We believe the accident reporting process was accurate
                                   because supervisors and managers had received the safety



14
   Postal Service Form 1769, Accident Report, was used to report accidents. The instructions on the form
required it be completed for all accidents, regardless of the extent of injury or amount of damage. This included
all first aid injury cases, both reportable and nonreportable.
15
   Employee and Labor Relations Manual 17.2, Section 821.13, February 2003.
16
   Preventive action codes described the action taken to eliminate or reduce the accident cause(s) and prevent
similar accidents.
17
   Employee and Labor Relations Manual 17.2, Section 821.12, February 2003.




                                                        8
Efforts to Prevent Accidents, Injuries,                                              HM-AR-04-009
 and Illnesses in the Chicago and Greater Indiana
 Performance Clusters (Great Lakes Area)



                                training required by the performance clusters and had
                                communicated the accident reporting process to employees
                                through safety talks and posters.

 Management’s                   Management comments were not required; however,
 Comments                       management provided comments stating there were no
                                disagreements with the audit report’s findings.

                                Management stated it would be useful if the report contained
                                sufficient information for the audited offices to investigate and
                                correct the deficiencies identified.

                                Management also stated they would like clarification of the
                                findings so that future errors can be corrected. For example,
                                they wanted to know what accidents were missing from the
                                database. Management’s comments, in their entirety, are
                                included in Appendix E of this report.

 Evaluation of                  We agree that additional clarification would allow the
 Management’s                   performance clusters to correct future errors. However,
 Comments                       because the information includes Social Security numbers and
                                employee names, we could not include it in our report, whose
                                distribution is widespread. However, we will provide additional
                                clarification to the Greater Indiana Performance Cluster under
                                separate cover.




                                                    9
Efforts to Prevent Accidents, Injuries,                         HM-AR-04-009
 and Illnesses in the Chicago and Greater Indiana
 Performance Clusters (Great Lakes Area)

                           APPENDIX A. ABBREVIATIONS
e-FOIA          Electronic Freedom of Information Act
FOIA            Freedom of Information Act
FY              Fiscal Year
HRIS            Human Resources Information Systems
OSHA            Occupational Safety and Health Administration
OWCP            Office of Workers’ Compensation Programs
RMRS            Risk Management Reporting System
WebEIS          Web-Enabled Enterprise Information System




                                                    10
Efforts to Prevent Accidents, Injuries,                                                                HM-AR-04-009
 and Illnesses in the Chicago and Greater Indiana
 Performance Clusters (Great Lakes Area)

                   APPENDIX B. SCOPE AND METHODOLOGY
Our performance cluster selections were based on the lowest and highest combined OSHA injury and
illness and accident frequency rates from FY 200218 through accounting period19 7 in FY 2003.20 The
Chicago average total OSHA injury and illness rates and accident frequency rates were 6.15 percent
and 10.51 percent, respectively. The Greater Indiana average total OSHA injury and illness rates and
accident frequency rates were 8.71 percent and 21.12 percent, respectively. The average total
accident frequency rate of 6.15 percent in the Chicago Performance Cluster meant that out of every
100 employees, an average of 6.1 had an accident for that period.

We selected three facilities at each performance cluster based on size and type (for example, airport
mail center, processing and distribution center, post office, and station). The Chicago facilities we
visited were the Cardiss Collins Processing and Distribution Center, the O’Hare Airport Mail Center,
and the Fort Dearborn Station. The Greater Indiana facilities we visited were the Indianapolis
Processing and Distribution Center, the Indianapolis Airport Mail Center, and the Bacon Station.

To accomplish our objectives, we reviewed applicable federal laws and Postal Service and OSHA
policies and procedures related to accident and injury prevention.

To verify whether the number of accidents and injuries was declining as a result of corrections to
unsafe working conditions and practices, we obtained data by accident category and code (slips, trips
and falls, lifting, dog bites, repetitive motion, striking against, struck by objects, and motor vehicles)
for each performance cluster visited. In addition, we obtained accident numbers and accident
frequency rate data from the Postal Service WebEIS for FYs 2002 and 2003. We also obtained
from RMRS the accident frequency rates and OSHA injury and illness for FY 2002 and the
first eight accounting periods in FY 2003.21 We reviewed data from both WebEIS and RMRS to
determine whether downward trends indicated a reduction in accidents, injuries, and illnesses.

To determine whether corrective actions and prevention initiatives were made in a timely manner to
reduce the number of accidents, injuries, and illnesses, we reviewed Postal Service policy to learn
whether a national or other standard policy existed that addressed how unsafe working conditions
and practices should be corrected in a timely manner. We reviewed documentation for corrective
actions and prevention initiatives implemented from FY 2002 through accounting period 8 in FY 2003.

To determine whether accident, injury, and illness data were accumulated and analyzed for
prevention initiatives, we analyzed accidents, injuries, training documents, and workplace inspection
data for sources and locations of accidents and jobs with high occurrences of accidents. We also
analyzed accident and injury trends to determine whether a pattern of accidents with common causes
could be identified in order to prevent future occurrences. We reviewed action plans and Program
Evaluation Guide data that were accumulated and analyzed for prevention initiatives during FYs 2002
and 2003.

To determine whether processes used within the various functional areas facilitated accurate
reporting of accidents, injuries and illnesses, we interviewed human resources, safety and health

18
   The FY 2002 period for the Postal Service began September 8, 2001, and ended September 6, 2002.
19
   An accounting period is defined as a four-week period that forms one-thirteenth of the Postal Service fiscal
year.
20
   The first seven accounting periods for FY 2003 began September 7, 2002, and ended March 21, 2003. The
FY 2003 period for the Postal Service began September 7, 2002, and ended September 5, 2003. However, the
Postal Service transitioned its financial reporting system from accounting periods to monthly reporting periods on
October 1, 2003. The transition period began September 6, 2003, and ended September 30, 2003.
21
   The first eight accounting periods for FY 2003, began September 7, 2002, and ended April 18, 2003.




                                                        11
Efforts to Prevent Accidents, Injuries,                                                     HM-AR-04-009
 and Illnesses in the Chicago and Greater Indiana
 Performance Clusters (Great Lakes Area)

program personnel, and management at the area, performance cluster, and facility levels. We
obtained information related to accident prevention, such as resources, training, accident and hazard
reporting, safety talks, and internal controls. In addition, we selected two statistical samples of
accidents, injuries, and illnesses entered into HRIS for FYs 2002 and 2003. We reviewed a sample
of accident report forms for accuracy and completeness, and reviewed a sample of accidents from
HRIS to determine whether the information on the accident report was entered accurately. (See
Appendices C and D for a discussion of the sampling and projection methodologies used.)

This review was conducted from May 2003 through July 2004 in accordance with generally accepted
government auditing standards and included such tests of internal controls as were considered
necessary under the circumstances. We discussed our conclusions and observations with
appropriate management officials and included their comments, where appropriate. We believe the
computer-generated data was sufficiently reliable to support the opinions and conclusions in this
report.




                                                    12
Efforts to Prevent Accidents, Injuries,                                                              HM-AR-04-009
and Illnesses in the Chicago and Greater Indiana
Performance Clusters (Great Lakes Area)


                                             APPENDIX C

STATISTICAL SAMPLING FOR REVIEW OF ACCIDENT REPORTING
     PROCESSES IN CHICAGO PERFORMANCE CLUSTER
Purpose of the Sampling

One of the objectives of this audit was to assess the accuracy and completeness of the accident data
in HRIS. In support of this objective, the audit team employed a simple random sample of accidents
listed in the database. Existence of the appropriate supporting forms was also tested using the
sample.

Definition of the Audit Universe

The audit universe consisted of 2,255 accidents, according to the HRIS database, for all of FYs 2002
and 2003. The universe was obtained on-site by requesting printed HRIS data from the safety
manager responsible for the accident and injury prevention program.

The accident report forms on file were stored in folders by accounting period and accident type.
There were 156 folders (13 accounting periods x 2 years x 6 accident types).

Based on information provided by the safety manager, the Chicago Performance Cluster consisted of
56 installations.

Sample Design and Modifications

The team had no prior knowledge of an expected error rate. We believed it to be less than
50 percent in general but possibly near 50 percent for at least one attribute considered. Therefore,
we chose an expected error rate of 40 percent for the sample size calculation. For projection of a
two-sided interval with +/- 7 percent precision at the 95 percent confidence level, we wanted a sample
size of approximately 170 accidents. To achieve the sample size, we used a two-stage sample
design, with folders selected at the first stage and individual accident report forms selected at the
second.

To select accidents for inclusion in the first stage of our sample, we used the “randbetween” function
in Microsoft Excel22 to assign a random start for the interval sampling of folders in the universe. To
select accidents for inclusion in the second stage of our sample, we selected individual accident
report forms on-site, using interval sampling as well.

Our interval sampling was defined as follows:

     •   Per folder:
             o If fewer than 10 accident report forms, check all forms.
             o If 10 to 20, check every other form starting with the first form.
             o If 20 to 49, check every third form starting with the second form.
             o If 50 to 99, check every fifth form starting with the fourth form.
             o If more than 99, start with the seventh form.

22
 Microsoft Excel is a spreadsheet program from the Microsoft Office suite of productivity tools for Windows and
Macintosh.




                                                      13
Efforts to Prevent Accidents, Injuries,                                                        HM-AR-04-009
and Illnesses in the Chicago and Greater Indiana
Performance Clusters (Great Lakes Area)


                        For 100 to 199, divide by 10 and use that number as the interval.
                        For 200 to 29, divide by 20 and use that number as the interval.
                        For 300 to 399, divide by 30 and use that number as the interval.

To test the completeness and accuracy of the database, we tested five attributes:

    •   Was the accident shown on the accident report form listed in the database?
    •   Did the accident control number in the database agree with that on the form?
    •   Did the accounting period date in the database agree with the accident date on the form?
    •   Did the listing of the involved person(s) in the database agree with that on the form?
    •   Did the accident description in the database agree with that on the form?

For the completeness of the accident report forms, we tested two additional attributes:

    •   Was the preventive action code on the form?
    •   Was the preventive action on the form?

Additional Analysis and Results

We noted that the forms reviewed were selected in accordance with the random sample design.
Therefore, although we cannot make a formal statistical projection, we believe the low error rates
observed in the records reviewed supported the audit team’s opinion that there is little likelihood of a
major problem with the data in the files or in the database.




                                                   14
Efforts to Prevent Accidents, Injuries, 	                                                     HM-AR-04-009
and Illnesses in the Chicago and Greater Indiana
Performance Clusters (Great Lakes Area)


                                          APPENDIX D

   STATISTICAL SAMPLING AND PROJECTIONS FOR REVIEW OF 

    ACCIDENT REPORTING PROCESSES IN GREATER INDIANA 

                  PERFORMANCE CLUSTER

Purpose of the Sampling

One of the objectives of this audit was to assess the accuracy and completeness of the accident data
in the HRIS. In support of this objective, the audit team employed a stratified two-stage random
sample. The sample design allowed statistical projection of the number of discrepancies between the
database and the accident report forms on file. Existence of the appropriate supporting forms was
also tested using the sample.

Definition of the Audit Universe

The team defined the audit universe from 168 facilities consisting of the Greater Indiana Processing
and Distribution Center, the Greater Indiana Mail Processing Annex, and customer service offices
and post offices from the ZIP Code areas as follows: 460, 461, 462, 463, 464, 469, 472, and 473.
The audit universe of accidents for these locations consisted of 3,247 accidents, according to the
HRIS database for all of FY 2002 and 2003. The universe of accidents was obtained on-site by
requesting printed HRIS data from the safety manager responsible for the accident and injury
prevention program.

Sample Design and Modifications

Based on the physical location of the accident report forms, we stratified the population into two
strata. Stratum one consisted of the 166 customer service offices and post offices, and stratum two
consisted of the Greater Indiana Processing and Distribution Center and Mail Processing Annex.

Within stratum one, we used a two-stage sample design and randomly selected offices at the
first stage using the “randbetween” function in Microsoft Excel to assign random numbers to
installations on the universe listing. At the second stage, we selected individual accident report
forms. The audit team selected individual accident report forms on-site, using interval sampling
defined as follows:

    •   Per folder:
            o If fewer than 10 accident report forms, check all forms.
            o If 10 to 20, check every other form starting with the first form.
            o If 20 to 49, check every third form starting with the second form.
            o If 50 to 99, check every fifth form starting with the fourth form.
            o	 If more than 99, start with the seventh form.
                     For 100 to 199, divide by 10 and use that number as the interval.
                     For 200 to 299, divide by 20 and use that number as the interval.
                     For 300 to 399, divide by 30 and use that number as the interval.

The sample design within stratum one yielded a sample of 50 facilities (selected at the first stage) and
377 accident report forms (selected at the second stage).




                                                   15
Efforts to Prevent Accidents, Injuries,                                                      HM-AR-04-009
and Illnesses in the Chicago and Greater Indiana
Performance Clusters (Great Lakes Area)


Within stratum two, the audit team selected individual accident report forms on-site, using interval
sampling with a random start of three and selecting every seventh accident report form. This yielded
a sample size of 118 reports for stratum two.

To test completeness and accuracy of the database, we tested five attributes:

    •   Was the accident shown on the accident report form listed in the database?
    •   Did the accident control number in the database agree with that on the form?
    •   Did the accounting period date in the database agree with the accident date on the form?
    •   Did the listing of the involved person(s) in the database agree with that on the form?
    •   Did the accident description in the database agree with that on the form?

For the completeness of the accident report forms, we tested two additional attributes:

    •   Was the preventive action code on the form?
    •   Was the preventive action on the form?

Statistical Projections of the Sample Data

For the projection of the number of errors for each attribute, we observed that the sample items
contained very low error rates. Because of extremely low occurrence rates observed at the
second stage of sample selection, we were not able to use the normal approximation to the binomial
to calculate occurrence limits. Instead, we analyzed the upper occurrence limit, using as a basis the
cumulative binomial methodology modified for the two-stage sample design. We did this by
combining an “implied” within upper bound for each stratum with an estimate (direct measure from the
sample) of the between cluster bound for each stratum. We used a 5 percent risk of overreliance
(beta-risk).

Results

All projections were made to the audit universe of 3,247 accidents, as described in the audit universe
definition.

1. Was the accident shown on the accident report form listed in the database?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
39 forms (1.20 percent) were missing from the HRIS database. The point estimate is that
14 (0.42 percent) forms were missing.

2. Did the accident control number in the database agree with that on the form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
47 accident control numbers (1.43 percent) disagreed. The point estimate is that 15 numbers
disagreed (0.47 percent).

3. Did the accounting period date in the database agree with the accident date on the form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
59 accounting period dates in the database (1.82 percent) disagreed with the date shown on the
form. The point estimate is that 21 accounting period dates (0.64 percent) disagreed with the date
shown on the form.

4. Did the listing of the involved person(s) in the database agree with that on the form?
Based on projection of the sample results, we can state with 95 percent reliance that no more than
40 database listings of person(s) involved (1.24 percent) disagreed with the information on the form.




                                                   16
  Efforts to Prevent Accidents, Injuries,                                                       HM-AR-04-009
  and Illnesses in the Chicago and Greater Indiana
  Performance Clusters (Great Lakes Area)


  The point estimate is that 10 database listings of person(s) involved (0.32 percent) disagreed with the 

  form. 


  5. Did the accident description in the database agree with that on the form?
  Based on projection of the sample results, we can state with 95 percent reliance that no more than 

  40 accident descriptions in the database (1.24 percent) disagreed with the information on the form. 

  The point estimate is that 10 accident descriptions in the database (0.32 percent) disagreed with the 

  form. 


  6. Was the preventive action code on the form?
  Based on projection of the sample results, we can state with 95 percent reliance that no more than 

  263 of the forms (8.11 percent) lacked the preventive action code. The point estimate is that 

  160 forms (4.92 percent) lacked the preventive action code. 


  7. Was the preventive action on the form?
  Based on projection of the sample results, we can state with 95 percent reliance that no more than 

  245 of the forms (7.55 percent) lacked the preventive action. The point estimate is that 140 forms 

  (4.3 percent) lacked the preventive action.

 Summary of Results

 (Universe Size = 3,247; Sample Size = 495)
      Attribute
  (Number above        Number of
   corresponds to       Errors in      Projected Number         95 Percent Confidence
   number below)        Sample               of Errors        Interval*, Number of Errors
           1                3                   14                       3 to 39
           2                4                   15                       4 to 47
           3                5                   21                       5 to 59
           4                3                   10                       3 to 40
           5                3                   10                       3 to 40
           6               31                   160                     31 to 263
           7               26                   140                     26 to 245
*For attributes with low error rates, this interval is the observed number of errors in the
sample (logical lower bound) and the upper error limit, assuming a 5 percent risk of
overreliance.




                                                      17
Efforts to Prevent Accidents, Injuries,                 HM-AR-04-009
and Illnesses in the Chicago and Greater Indiana
Performance Clusters (Great Lakes Area)




                APPENDIX E. MANAGEMENT’S COMMENTS




                                                   18
Efforts to Prevent Accidents, Injuries,                 HM-AR-04-009
and Illnesses in the Chicago and Greater Indiana
Performance Clusters (Great Lakes Area)




                                                   19
Efforts to Prevent Accidents, Injuries,                 HM-AR-04-009
and Illnesses in the Chicago and Greater Indiana
Performance Clusters (Great Lakes Area)




                                                   20
Efforts to Prevent Accidents, Injuries,                 HM-AR-04-009
and Illnesses in the Chicago and Greater Indiana
Performance Clusters (Great Lakes Area)




                                                   21
